No. _______________

IN THE

Supreme Court of the United States
_________
ALAN H. OLEFSKY,
Petitioner,
v.
ILLINOIS DEPARTMENT OF FINANCIAL AND PROFESSIONAL
REGULATION, AND CECILIA ABUNDIS, ACTING DIRECTOR OF
THE DIVISION OF PROFESSIONAL REGULATION OF THE ILLINOIS
DEPARTMENT OF FINANCIAL AND PROFESSIONAL
REGULATION,
Respondents.
_________
On Writ of Certiorari to the
Illinois Supreme Court

_________
PETITION FOR A WRIT OF CERTIORARI
_________
TIMOTHY J. BINGHAM
LILLIAN S. WALANKA
CRICK WALANKA LAW
GROUP, LTD.
111 W. Washington St.,
Suite 1820
Chicago, IL 60602

MICHAEL K. GOLDBERG*
ROBERT A. BAUERSCHMIDT
GOLDBERG LAW GROUP
120 S. Riverside Plaza,
Suite 1675
Chicago, IL 60606
(312) 930-5600
mgoldberg@
goldberglawoffice.com
*Counsel of Record

QUESTIONS PRESENTED
1. Whether the IDFPR’s Final Order indefinitely
suspending Petitioner’s medical license for two
years pursuant to the first order on remand, or
one year pursuant to the second order on
remand, was an abuse of discretion when the
discipline is overly harsh in light of mitigating
circumstances and a violation of Petitioner’s
due process rights when compared to past
discipline for similar facts?
2. Whether federal and state courts reviewing
administrative decisions should be allowed to
reference and consider past administrative
decisions from the agency being reviewed if the
past

decisions

were

administrative record?

i

not

part

of

the

RELATED PROCEEDINGS
Alan H. Olefsky v. Illinois Department of Financial
and Professional Regulation, and Cecilia Abundis,
Acting Director of the Division of Professional
Regulation of the Illinois Department of Professional
and Financial Regulation,
Supreme Court of Illinois, No. 126348.
Order entered on November 18, 2020;
Alan H. Olefsky v. Illinois Department of Financial
and Professional Regulation, and Jessica Baer,
Director of the Division of Professional Regulation of
the Illinois Department of Professional and Financial
Regulation,
Appellate Court of Illinois, First District,
No. 1-19-1059.
Judgment entered on June 30, 2020;
Alan H. Olefsky v. Illinois Department of Financial
and Professional Regulation, and Jessica Baer,
Director of the Division of Professional Regulation of
the Illinois Department of Professional and Financial
Regulation,
Circuit Court of Cook County, Chancery Division,
No. 17 CH 2335.
Judgment entered on April 30, 2019;

ii

Department of Financial and Professional
Regulation, Division of Professional Regulation of the
State of Illinois v. Alan H. Olefsky, M.D.,
State of Illinois Department of Financial and
Professional Regulation,
Division of Professional Regulation, No. 2010-02234.
Judgment entered on April 20, 2018;
Alan H. Olefsky v. Illinois Department of Financial
and Professional Regulation, and Jessica Baer,
Director of the Division of Professional Regulation of
the Illinois Department of Professional and Financial
Regulation,
Circuit Court of Cook County, Chancery Division,
No. 17 CH 2335.
Judgment entered on January 12, 2018;
Department of Financial and Professional
Regulation, Division of Professional Regulation of the
State of Illinois v. Alan H. Olefsky, M.D.,
State of Illinois Department of Financial and
Professional Regulation,
Division of Professional Regulation, No. 2010-02234.
Judgment entered on March 13, 2017;

iii

Alan H. Olefsky, M.D., v. Illinois Department of
Financial and Professional Regulation; Jay Stewart,
Director of the Division of Professional Regulation of
the Illinois Department of Financial and Professional
Regulation; and Brent Adams, Secretary of the
Illinois Department of Financial and Professional
Regulation,
Appellate Court of Illinois, First District,
No. 1-15-2843.
Judgment entered on December 16, 2016;
Alan H. Olefsky, M.D., v. Illinois Department of
Financial and Professional Regulation; Jay Stewart,
Director of the Division of Professional Regulation of
the Illinois Department of Financial and Professional
Regulation; and Brent Adams, Secretary of the
Illinois Department of Financial and Professional
Regulation,
Circuit Court of Cook County, Chancery Division,
No. 15 CH 00125.
Judgment entered on August 7, 2015;
Department of Financial and Professional
Regulation, Division of Professional Regulation of the
State of Illinois v. Alan H. Olefsky, M.D.,
State of Illinois Department of Financial and
Professional Regulation,
Division of Professional Regulation, No. 2010-02234.
Judgment entered on December 22, 2014.

iv

TABLE OF CONTENTS
Question Presented....................................................... i
Related Proceedings.....................................................ii
Table of Authorities ...................................................vii
Opinions Below ............................................................ 1
Jurisdiction .................................................................. 2
Statutory Provisions Involved ..................................... 3
Statement ................................................................... 13
A. Factual Background ........................................ 13
B. Procedural Background .................................. 15
Reasons for Granting the Writ .................................. 21
I.

Defendants/Appellants Continue to Abuse the
Discretion Allotted to Them by State and
Federal Courts, Violating Due Process
Standards of Fairness ..................................... 21

v

II.

A Conflict Exists In the Illinois Appellate Court
Regarding Whether Comparisons to Previous
Disciplinary Cases Need To Be Argued at the
Administrative Level In Order To Consider
Them On Review, and The Appellate Court
Justices In This Case Disagreed On This
Issue ................................................................. 47

Conclusion .................................................................. 67
APPENDIX.......................................................... App. 1
Supreme Court of Illinois’ Order ............. App. 1
Illinois Appellate Court’s Opinion........... App. 3
IDFPR’s Second Order on Remand ....... App. 48
IDFPR’s First Order on Remand........... App. 64

vi

TABLE OF AUTHORITIES
Cases
Albazzaz v. Ill. Dep’t of Prof’l Regulation,
314 Ill. App. 3d 97, 102 (2000)........................ 29
Arceo v. Selcke,
226 Ill. App. 3d 166, 172 (1st Dist. 1992) ...... 63
Beall Const. Co. v. OSHRC,
507 F.2d 1041, 1046 (8th Cir. 1974) ............... 31
Bell v. Burson,
402 U.S. 535, 539 (1971) ................................. 58
Brown v. Plainfield Cmty. Consol. Dist. 202,
522 F. Supp. 2d 1068 (N.D. Ill. 2007)............. 27
Bruce v. Dep’t. of Registration & Educ.,
26 Ill. 2d 612 (1963) ........................................ 23
Cleveringa v. J.I. Case Co.,
230 Ill. App. 3d 831 (1992).............................. 42
Douglas v. Veterans Admin.,
5 M.S.P.B. 313 (1981) ............. 21, 26, 27, 30, 31
Greer v. Ill. Hous. Dev. Auth.,
122 Ill. 2d 462, 496-97 (1988) ................... 28, 29
Gruwell v. Ill. Dep’t. of Fin. & Prof’l Regulation,
406 Ill. App. 3d 283, 296 (4th Dist. 2010) ...... 62

vii

Guirguess v. U.S. Postal Service,
32 F. App’x 555 (Fed. Cir. 2002) ..................... 27
In re Saladino,
71 Ill. 2d 263, 275 (1978) ................................ 25
In re Wigoda,
77 Ill. 2d 154, 163 (1979) .. 24, 25, 35, 36, 40, 41
Kafin v. Div. of Prof’l Regulation of Dep’t of Fin. And
Prof’l Regulation,
2012 IL App (1st) 111875 ....... 24, 28, 29, 55, 63
Kulkin v. Bergland,
626 F.2d 181, 185 (1st Cir. 1974) ................... 30
Morrissey v. Brewer,
408 U.S. 471, 481-82 (1972) ............................ 57
Nwaokocha v. Illinois Dep’t of Fin.
& Prof’l Regulation,
2018 IL App (1st) 162614 .............. 39, 40, 42, 43
Parker v. U.S. Postal Serv.,
355 F. App’x 410 (Fed. Cir. 2009) ................... 27
Perry v. Sindermann,
408 U.S. 593, 597 (1972) ................................. 59
Pundy v. Dep’t of Prof’l Regulation,
211 Ill. App. 3d 475, 488 (1991)...................... 29
Siddiqui v. Illinois Dep’t of Prof’l Regulation,
307 Ill. App. 3d 753, 764
(4th Dist. 1999).................................... 23, 24, 40

viii

S. Illinois Asphalt Co. v. Pollution Control Bd.,
60 Ill. 2d 204, 207 (1975) .......................... 23, 35
Statutes
225 ILCS 100/10-35 ................................................... 48
225 ILCS 60/37........................................................... 55
225 ILCS 60/40(a) ...................................................... 55
225 ILCS 100/10-50 ................................................... 57

ix

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully petitions
for a writ of certiorari to review the
judgment of the Appellate Court of
Illinois, First District.

OPINIONS BELOW
The Supreme Court of Illinois’
order denying the Petition for Leave to
Appeal is unreported. (App. 1). The
Appellate

Court

of

Illinois,

First

District’s opinion is unpublished. (App.
3). The Illinois Department of Financial
and Professional Regulation’s second
order on remand placing Petitioner’s
Illinois Physician and Surgeon’s License
on indefinite suspension for a minimum
of one year is unreported. (App. 48). The

1

Illinois Department of Financial and
Professional Regulation’s first order on
remand

placing

Petitioner’s

Illinois

Physician and Surgeon’s License on
indefinite suspension for a minimum of
two years is unreported. (App. 64).

JURISDICTION
The Appellate Court of Illinois
entered judgment on June 30, 2020. The
Supreme Court of Illinois denied the
Petition

for

Leave

to

Appeal

on

November 18, 2020, issuing the mandate
to the Appellate Court of Illinois on
December 23, 2020. The Court has
jurisdiction under 28 U.S.C. §1257(a).

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourteenth Amendment provides:
“…nor shall any State deprive any
person of life, liberty, or property without
due process of law…”
The Illinois Medical Practice Act, 225 ILCS
60/37 provides:
(a)

At the time and place fixed in the notice, the
Disciplinary Board provided for in this Act shall
proceed to hear the charges, and the accused
person shall be accorded ample opportunity to
present

in

person,

or

by

counsel,

such

statements, testimony, evidence and argument
as may be pertinent to the charges or to any
defense thereto. The Disciplinary Board may
continue such hearing from time to time. If the
Disciplinary Board is not sitting at the time and
3

place fixed in the notice or at the time and place
to which the hearing has been continued, the
Department shall continue such hearing for a
period not to exceed 30 days.
(b)

In case the accused person, after receiving
notice, fails to file an answer, their license may,
in the discretion of the Secretary, having
received first the recommendation of the
Disciplinary Board, be suspended, revoked or
placed on probationary status, or the Secretary
may take whatever disciplinary action as he or
she may deem proper, including limiting the
scope, nature, or extent of said person's
practice, without a hearing, if the act or acts
charged constitute sufficient grounds for such
action under this Act.

(c)

The Disciplinary Board has the authority to
recommend to the Secretary that probation be

4

granted or that other disciplinary or nondisciplinary action, including the limitation of
the scope, nature or extent of a person's
practice, be taken as it deems proper. If
disciplinary or non-disciplinary action, other
than suspension or revocation, is taken the
Disciplinary Board may recommend that the
Secretary impose reasonable limitations and
requirements upon the accused registrant to
insure compliance with the terms of the
probation

or

other

disciplinary

action

including, but not limited to, regular reporting
by the accused to the Department of their
actions, placing themselves under the care of a
qualified physician for treatment, or limiting
their practice in such manner as the Secretary
may require.

5

(d)

The Secretary, after consultation with the Chief
Medical

Coordinator

or

Deputy

Medical

Coordinator, may temporarily suspend the
license of a physician without a hearing,
simultaneously

with

the

institution

of

proceedings for a hearing provided under this
Section if the Secretary finds that evidence in
his

or

her

possession

indicates

that

a

physician's continuation in practice would
constitute an immediate danger to the public.
In the event that the Secretary suspends,
temporarily, the license of a physician without
a hearing, a hearing by the Disciplinary Board
shall be held within 15 days after such
suspension has occurred and shall be concluded
without appreciable delay.

6

The Illinois Medical Practice Act, 225 ILCS 60/40(a),
provides:
(a)

The Disciplinary Board shall present to the
Secretary a written report of its findings and
recommendations. A copy of such report shall
be served upon the accused person, either
personally or by mail or email. Within 20 days
after such service, the accused person may
present to the Department his or her motion, in
writing, for a rehearing, which written motion
shall specify the particular ground therefor. If
the accused person orders and pays for a
transcript of the record as provided in Section
39, the time elapsing thereafter and before such
transcript is ready for delivery to them shall not
be counted as part of such 20 days.

7

The Illinois Administrative Procedure Act, 5
ILCS 100/10-50, provides:
(a)

A final decision or order adverse to a
party (other than the agency) in a
contested case shall be in writing or
stated in the record. A final decision
shall

include

findings

of

fact

and

conclusions of law, separately stated.
Findings of fact, if set forth in statutory
language, shall be accompanied by a
concise and explicit statement of the
underlying facts supporting the findings.
If, in accordance with agency rules, a
party submitted proposed findings of
fact, the decision shall include a ruling
upon each proposed finding. Parties or
their agents appointed to receive service
of process shall be notified either

8

personally, by registered or certified
mail, by email as provided by Section 1075, or as otherwise provided by law.
Upon request a copy of the decision or
order shall be delivered or mailed
forthwith to each party and to his
attorney of record.
(b)

All agency orders shall specify whether
they are final and subject to the
Administrative Review Law. Every final
order shall contain a list of all parties of
record to the case including the name
and address of the agency or officer
entering the order and the addresses of
each party as known to the agency where
the

parties

may

be

served

with

pleadings, notices, or service of process
for any review or further proceedings.

9

Every

final

order

shall

also

state

whether the rules of the agency require
any

motion

or

request

for

reconsideration and cite the rule for the
requirement. The changes made by this
amendatory Act of the 100th General
Assembly apply to all actions filed under
the Administrative Review Law on or
after

the

effective

date

of

this

amendatory Act of the 100th General
Assembly.
(c)

A decision by any agency in a contested
case under this Act shall be void unless
the

proceedings

are

conducted

in

compliance with the provisions of this
Act relating to contested cases, except to
the extent those provisions are waived
under Section 10-70 and except to the

10

extent the agency has adopted its own
rules for contested cases as authorized in
Section 1-5.
The Illinois Administrative Procedure Act, 5
ILCS 100/10-35, provides:
(a)

The record in a contested case shall include the
following:
(1) All pleadings (including all notices and
responses thereto), motions, and rulings.
(2) All evidence received.
(3) A statement of matters officially noticed.
(4) Any offers of proof, objections, and rulings
thereon.
(5) Any proposed findings and exceptions.
(6) Any decision, opinion, or report by the
administrative law judge.

11

(7) All staff memoranda or data submitted to
the administrative law judge or members of
the

agency

consideration

in
of

connection
the

case

with
that

their
are

inconsistent with Section 10-60.
(8) Any communication prohibited by Section
10-60. No such communication shall form
the basis for any finding of fact.
(b)

Oral proceedings or any part thereof shall be
recorded stenographically or by other means
that will adequately ensure the preservation of
the testimony or oral proceedings and shall be
transcribed on the request of any party.

(c)

Findings of fact shall be based exclusively on
the evidence and on matters officially noticed.

12

STATEMENT
A. Factual background
Petitioner is the holder of Illinois
Physician and Surgeon License No. 036-78254
(“medical license”) which was first issued by the
Illinois

Department

of

Financial

and

Professional Regulation (“IDFPR”) in 1988,
several years after obtaining a medical degree
from St. George’s University and completing a
successful residency in internal medicine at
Yale University.
On
medical

December
license

probationary

was

status

5,

2007,
placed

Petitioner’s
on

following

active,
several

disciplinary matters with the IDFPR. These
matters occurred between February 2005 and
December 2007 and were based on Petitioner’s
suffering of alcohol addiction and subsequent

13

treatment, as well as the loss of his DEA
registration. None of the disciplinary sanctions
involved patient care issues. The outcomes of
these disciplinary actions varied between
suspension

and

probation

of

Petitioner’s

medical license, depending on the status of his
recovery. Currently, Petitioner has remained in
solid recovery for over fourteen years.
After Petitioner filed a Petition to restore
his medical license to active, unencumbered
status, the IDFPR filed a complaint against
Petitioner in June 2013. IDFPR’s June 2013
complaint contained allegations related to a
renewal application he filed for renewal of his
medical license, and specifically allegations
that he failed to report past disciplinary actions
by the IDFPR upon his medical license and
Illinois controlled substance license, again,

14

none of which related to patient care. In July
2014,

within

the

same

week

as

the

commencement of the formal hearing regarding
the June 2013 Complaint in Case No. 20102234, the IDFPR filed an Amended Complaint
against Petitioner based on his alleged failure
to report the denial of his re-applications for a
DEA registration in 2007 and again in 2011.
B. Procedural background
In December 2014, following a hearing
before an Administrative Law Judge (“ALJ”),
the IDFPR issued a decision in Case No. 20102234

indefinitely

suspending

Petitioner’s

medical license for a minimum of three (3)
years based on a finding of six (6) violations of
the Illinois Medical Practice Act, 225 ILCS 60.

15

On administrative review, the Circuit
Court of Cook County issued a written decision
in August 2015 that confirmed the IDFPR’s
decision in part and reversed in part. The
Circuit Court found that Petitioner engaged in
three (3) violations of the Illinois Medical
Practice Act and the remaining three (3)
violations

were

found

to

be

unfounded;

however, the opinion was silent on Petitioner’s
request to reverse the sanction previously
imposed by the IDFPR.
Following the denial of a motion for
reconsideration and clarification, Petitioner
filed an appeal with the Illinois Appellate
Court. The Appellate Court of Illinois, First
District, affirmed the Circuit Court’s decision
and remanded the case to the IDFPR on
December

16,

2016

16

to

re-determine

an

appropriate sanction based on the remaining
three (3) violations.
The IDFPR issued a new order on March
13, 2017 (“first order on remand”), in which the
IDFPR

indefinitely

suspended

Petitioner’s

medical license for a minimum of two (2) years
based on the remaining three (3) violations.
Petitioner then sought administrative
review of the March 13, 2017 order in the
Circuit Court of Cook County. After a full
briefing on the matter, the Circuit Court, on
January 12, 2018, reversed the first order on
remand, finding the sanction was an abuse of
discretion because it was overly harsh for it was
out of proportion with the IDFPR’s disciplinary
history for similar offenses, as demonstrated by
Petitioner.

The

matter

17

was

once

again

remanded to the IDFPR to reconsider its
disciplinary sanction.
The IDFPR issued a new order on
remand on April 20, 2018 (“second order on
remand”) in which the IDFPR indefinitely
suspended Petitioner’s medical license for a
minimum of one (1) year.
On April 30, 2019, the Circuit Court
affirmed the one-year indefinite suspension
sanction imposed by the IDFPR on a procedural
issue, while still explicitly finding that the oneyear suspension was an abuse of discretion.
Petitioner filed a Notice of Appeal in the Illinois
Appellate Court, First District on May 22, 2019,
while the IDFPR filed a Notice of Cross-Appeal
on May 29, 2019 arguing that the Appellate
Court should find that Petitioner’s medical

18

license should be indefinitely suspended for two
years as set forth in the first order on remand.
On June 30, 2020, the Illinois Appellate
Court, First District, issued its Order, affirming
in part and reversing in part. The court
affirmed the IDFPR’s first decision upon
remand to indefinitely suspended plaintiff’s
medical license for a minimum of two years. In
affirming that first decision after remand, the
court, thereby, reversed the circuit court’s order
that had reversed that decision, as well as
vacated

the

IDPFR’s

subsequent

second

decision after remand to impose a one-year
indefinite suspension along with the circuit
court’s order affirming that decision.

On

September 8, 2020, Petitioner timely filed a
Petition for Leave to Appeal with the Illinois

19

Supreme

Court,

which

November 18, 2020.

20

was

denied

on

REASONS FOR GRANTING THE WRIT
I.

DEFENDANTS/APPELLANTS
CONTINUE TO ABUSE THE
DISCRETION ALLOTTED TO
THEM BY STATE AND FEDERAL
COURTS, VIOLATING DUE
PROCESS STANDARDS OF
FAIRNESS
The

lower

courts

must

be

reversed, because this Court has for
decades

held

that

consistency

of

administrative penalties/sanctions is a
factor that agencies must take into
account when determining if a decision is
appropriate.

Douglas

v.

Veterans

Admin., 5 M.S.P.B. 313 (1981). While
Petitioner’s case stems from a state
agency, his case presents an opportunity
for this Court to stem the rising tide of
seemingly

unfettered

state

agencies

taking advantage of the deference given

21

to them by previous courts. The central
point in this case is pursuant to Supreme
Court Rule 28 U.S.C. §1257(a) that there
is a need for the Supreme Court to
exercise

its

supervisory

authority

because, respectfully, the decisions of the
Cook County Circuit Court, Illinois
Appellate Court, and Illinois Supreme
Court have failed to exercise proper
authority over the IDFPR, and similar
administrative agencies, resulting in a
vast

disparity

in

administrative

sanctions despite similar factual and
evidentiary issues.
Illinois case law has repeatedly
held that while the abuse of discretion
standard

is

deferential,

it

is

not

unfettered, and it is not only this Court’s

22

purview but its responsibility to ensure
that the IDFPR exercises its discretion
appropriately.

S. Ill. Asphalt Co. v.

Pollution Control Bd., 60 Ill. 2d 204, 207
(1975) (“Where an administrative order
is against the manifest weight of the
evidence or where the agency has acted
arbitrarily

or

capriciously

and

has

thereby abused the discretion vested in
it, the courts should not hesitate to
intervene.”), citing Bruce v. Dep’t of
Registration & Educ., 26 Ill. 2d 612
(1963). One way in which an agency’s
sanction can be found to be an abuse of
discretion is if the agency does not act in
uniformity

with

prior

disciplinary

sanctions. Siddiqui v. Ill. Dep’t of Prof’l
Regul., 307 Ill. App. 3d 753, 764 (4th

23

Dist. 1999), citing In re Wigoda, 77 Ill. 2d
154, 163 (1979); Kafin v. Div. of Prof'l
Regul. of Dep't of Fin. & Prof'l Regul.,
2012 IL App (1st) 111875, ¶ 50. The
IDFPR

will

argue,

as

they

have

previously during this case, that the
uniformity requirement is in fact a
guideline but is not necessarily required.
However, this argument misinterprets
Illinois case law in this area. Siddiqui, In
re Wigoda, and Kafin all support the
proposition that agencies should apply
consistency of disciplinary sanctions as
more than a mere guideline but should
strive

for

uniformity

in

imposing

disciplinary sanctions. “A ‘degree in the
consistency of the selection of sanctions’
is required in disciplinary proceedings.”

24

In re Wigoda, 77 Ill. 2d 154, 163 (1979),
citing In re Saladino, 71 Ill.2d 263, 275
(1978). In re Wigoda is the foundational
Illinois Supreme Court case on this
matter and while the Illinois Supreme
Court has had the opportunity to reverse
the case or retract this requirement, it
has not done so. That leaves this Court
as the last opportunity to provide clarity
and fairness to thousands of licensed
professionals in Illinois. By doing so, this
Court could guide the agencies across all
50

states

and

administrative

help
state

create
with

an
some

accountability.
Not only is the IDFPR routinely
ignoring established Illinois law, but the
above cited federal case law shows the

25

IDFPR operates in a fashion inapposite
of federal administrative standards.
Petitioner has consistently pointed the
IDFPR, the Circuit Court, the Appellate
Court, and the Illinois Supreme Court to
recent

disciplinary

indisputably

show

cases
the

that
IDFPR’s

discipline in Petitioner’s case is overly
harsh.
The IDFPR repeatedly ignored
well

established

Illinois

case

law

supported by foundational federal cases
in administrative law. In Douglas, the
Merit

Systems

Protection

Board

(“MSPB”) enumerated important factors
in

determining

administrative
when

the

legality

sanctions,

evaluating

if

26

a

of

specifically
sanction

is

“arbitrary and capricious”. The MSPB
specifically stated “[c]ourt decisions and
OPM and Civil Service Commission
issuances have recognized a number of
factors are relevant for consideration in
determining the appropriateness of a
penalty…consistency of the penalty with
those imposed upon other employees for
the same or similar offenses…” Douglas,
at 332. The Douglas standards are
repeated outside of MSPB jurisdiction.
See Brown v. Plainfield Cmty. Consol.
Dist. 202; Guirguess v. U.S. Postal
Service; and Parker v. U.S. Postal
Service.1 The comparison between these

1

Brown used the Douglas standards in assessing the discipline

in a school district matter. In Guirguess and Parker, the Douglas

27

federal cases and Illinois law is apt
because both arenas utilize a version of
the “arbitrary and capricious” test when
courts review administrative decisions.
For example, Illinois held that an
agency’s

determination

of

the

disciplinary sanction to be imposed is
reviewed for an abuse of discretion.
Greer v. Ill. Hous. Dev. Auth., 122 Ill. 2d
at 496-97. The discipline is an abuse of
discretion

if

it

is

arbitrary

and

capricious, unreasonable or overly harsh
in light of mitigating circumstances, or
unrelated to the purpose of the Act.
Kafin v. Div. of Prof'l Regulation of Dep't

standards were used in assessing the administrative decision of
the Postal Service.

28

of Fin. & Prof'l Regulation, 2012 IL App
(1st) 111875, ¶ 49; Albazzaz v. Ill. Dep’t
of Prof’l Regulation, 314 Ill. App. 3d 97,
102 (2000). An agency acts arbitrary and
capriciously when the discipline imposed
is (1) overly harsh in light of mitigating
circumstances, or (2) unrelated to the
purpose of the Act. Albazzaz v. Ill. Dep’t
of Prof’l Regulation, 314 Ill. App. 3d at
102, citing Pundy v. Dep’t of Prof’l
Regulation, 211 Ill. App. 3d 475, 488
(1991). An agency action is overly harsh
if it is out of line with discipline imposed
in similar cases. Kafin, 2012 IL App (1st)
111875, ¶ 50. Courts should not hesitate
to intervene when an agency abuses its
discretion in such a manner. Greer v. Ill.
Hous. Dev. Auth., 122 Ill. 2d at 497.

29

As part of the IDFPR’s repeated
claim that they are owed great deference,
a deference never before approved by
this Court, the IDFPR argues for the
administrative agency’s exclusivity to
review the facts and assess witness
credibility, which no court of appeal has
access to or has formed opinions on.
Douglas, quoting Kulkin v. Bergland,
states “the appropriateness of a penalty,
while depending upon resolution of
questions of fact, is by no means a mere
factual determination. Such a decision
‘involves not only an ascertainment of
the factual circumstances surrounding
the violations but also the application of
administrative

judgment

and

discretion.’” 626 F.2d 181, 185 (1st Cir.

30

1980). “Assessment of penalties by the
administrative agency is not a factual
finding but the exercise of discretionary
grant of power.” Beall Const. Co. v.
OSHRC, 507 F.2d 1041, 1046 (8th Cir.
1974). The deference afforded to agencies
like the IDFPR must have some controls
or metrics. Past administrative decisions
should guide an agency’s administrative
judgment and discretion.
This is not a new way to evaluate
administrative sanctions, but reliance
upon the claim of ultimate discretion
results

in

unfairness

to

many

professional licensees in Illinois and
elsewhere. As the MSPB points out in
Douglas, the “principle of like penalties
for like offense” dates back to President

31

McKinley and the Pendleton Act in 1897.
Douglas

626

F.2d

327

(1st

Cir.

1980).This Court can clearly see why this
is an established principle. Due process
under the 5th and 14th Amendments
requires a fair application of the law to
every citizen. Issuing similar sanctions
for similar fact patterns is a prime
example of fair application of the law.
The IDFPR’s actions, specifically
the two (first order on remand) and then
one-year indefinite suspensions they
have attempted to impose on Petitioner,
should give this Court every reason to
step in and right this wrong. It must first
be made clear that the Circuit Court
found, on two separate occasions during
the procedural history of this case, that

32

the IDFPR’s proposed discipline of
Petitioner’s license, be it a two year or
one-year indefinite suspension, is overly
harsh and an abuse of discretion. The
finding of those two decisions being an
abuse of discretion was based upon the
finding

that

the

decision

was

significantly out of line with comparable
past discipline imposed by the IDFPR on
similarly situated licensed physicians.
The Circuit Court stated, on April 30,
2019, that “it’s clear to this Court that
the

sanctions

on

Olefsky

are

not

consistent with the other sanctions in the
comparable cases where more severe
circumstances were greeted with a less
severe sanction than that given to
Olefsky and that it was abuse of

33

discretion.” The Circuit Court made
those statements about the one-year
indefinite

suspension

of

Petitioner’s

license set forth in the IDFPR’s second
order on remand.
In response to any thought that
this

requirement

hurts

or

hinders

administrative agencies, the uniformity
requirement does not stifle the IDFPR’s
expertise and experience and it does not
replace the adage that each case needs to
be

evaluated

on

its

own

merits.

Petitioner does not deny the IDFPR’s
expertise and experience. It is because of
that

experience

recent

sanctions

imposed by the IDFPR in similar cases
are available to compare to the facts in
Petitioner’s case. By imposing sanctions

34

in cases with similar facts and violations
in the past, the IDFPR has already
determined what would constitute the
appropriate sanction in this case. Once
again, it is this Court’s responsibility to
ensure that the IDFPR exercises its
discretion appropriately. S. Ill. Asphalt
Co. v. Pollution Control Bd., 60 Ill. 2d
204, 207 (1975).
If In re Wigoda, the foundational
Illinois Supreme Court case on this
matter, stands as good and controlling
law in Illinois, which it does, then it
holds true that there must be a way to
follow the law laid out in such an
important Illinois Supreme Court case. If
consistency is required for the selection
of sanctions in disciplinary procedures,

35

as laid out in In re Wigoda, then
inconsistency in the selection of those
sanctions must be reversed. In re
Wigoda, 77 Ill. 2d 154, 163 (1979).
Petitioner’s case is a perfect example of
this inconsistency in sanctions and why
this level of administrative review is
necessary. Petitioner requests this Court
to remand the final order suspending
Petitioner’s license for a minimum of two
years because deference to the IDFPR
does not overcome the abuse of discretion
they exhibited in this case. This Court is
the last opportunity Petitioner has to
hold the IDFPR accountable for their
blatantly

arbitrary

actions.

36

and

capricious

Even

though

Petitioner

is

petitioning in the U.S. Supreme Court
and has cited numerous federal cases in
support, the similar administrative cases
Petitioner must compare his case to are
other sanctions imposed by the IDFPR
and not other agencies. Petitioner has
consistently pointed the IDFPR, the
Circuit Court, and this Court to recent
disciplinary

cases

show

IDFPR’s

the

that

indisputably
discipline

in

Petitioner’s case is overly harsh. The
IDFPR has now had three opportunities
in the Circuit Court, two final orders on
remand, and two opportunities before
the Illinois Appellate Court to contradict
Petitioner’s proffered cases and show
past

sanctions

it

37

has

imposed

on

physicians, for similar conduct.

The

IDFPR failed to support its arbitrary and
overly harsh discipline of Petitioner’s
license – either the two-year indefinite
suspension as set forth in the first order
on remand or the

one-year indefinite

suspension set forth in the second order
on remand. Judge Hall, who presided in
the Circuit Court, when reviewing the
second order on remand imposing a oneyear indefinite suspension even gave the
IDFPR

an

opportunity

for

a

supplemental round of briefing on the
argument that the discipline is an abuse
of discretion. The IDFPR, struggling to
find any support for its position, came
back with three (3) cases where the
disciplined professional was a nurse, and

38

two

(2)

cases

judgments

involving

without

a

default
hearing.

Unsurprisingly, the Circuit Court did not
find those cases persuasive and the
IDFPR chose not to rely on them in front
of the Appellate Court.
Another

important

area

of

administrative sanctions that this Court
should rule on is that comparisons to
both cases that have settled without
going to a formal hearing and those that
did go to formal hearings should be
allowed during administrative review.
The

IDFPR,

indefinitely

in

their

suspending

final

order

Petitioner’s

license for a minimum of one-year
(second order on remand), directly cites
Nwaokocha

as

support

39

for

their

discipline. Nwaokocha v. Dep't of Fin. &
Prof'l Regulation, 2018 IL App (1st)
162614. The Illinois Supreme Court has
so far refused to accept a case asking for
clarification of Nwaokocha, so we ask
this Court to do so. The IDFPR reasoned
that Nwaokocha held that a licensed
professional, who was disciplined after a
formal

hearing,

cannot

use

past

sanctions in similar cases if those cases
were

resolved

through

settlement

agreements (“consent orders”). App. 60.
However,

Nwaokocha

only

creates

ambiguity as to this issue, which was
previously addressed in the established
case law [Siddiqui and In re Wigoda]
previously cited. The Illinois Appellate
Court

in

Nwaokocha

40

found

that

Petitioner’s reliance on only two similar
cases to his, which were resolved by
settlement, was insufficient to reverse
for a lack of uniformity argument. Id. at
57. Petitioner, in the present case, has
relied on ten (10) cases in the Circuit
Court on administrative review from the
IDFPR

and

two

(2)

cases

at

the

administrative level which represent the
entirety

of

the

IDFPR’s

publicly

searchable disciplinary history in similar
matters over the last several years. Most
importantly, In re Wigoda the Illinois
Supreme Court did not distinguish
between discipline the IDFPR imposed
in a Consent Order from that imposed
after a formal hearing but found there
needs to uniformity in similar cases

41

imposing sanctions.

The Nwaokocha

Court did not give a good explanation for
why they made a distinctionbetween
informal

settlements

and

formal

hearings when the Illinois Supreme
Court did not. 77 Ill. 2d 154, 163 (1979).
Nwaokocha, importantly, fails to
distinguish or adequately explain why
cases that resolved with consent orders
are suddenly incomparable when past
case law never made this distinction.
Nwaokocha

relies

almost

solely

on

language in Cleveringa v. J.I. Case Co.,
to hold when parties refuse to settle a
case they will be “exposed to enhanced
liability by that refusal…”. 192 Ill. App.
3d 1081, 1085-86 (1989). The language
that Nwaokocha and the Defendants

42

leave out comes right before that quote,
where the Illinois Appellate court held:
“Such a possibility always exists when
parties

to

litigation

contemplate

settlement.” Id. Cleveringa is clearly
about

civil

cases

and

settlement

agreements between private parties with
equal bargaining power. Petitioner’s case
is an administrative discipline between
an agency and a private individual
where there is not equal strength in
negotiating power because of the nature
of these agencies. Petitioner and the
IDFPR are not “parties to litigation” as
referenced

in

Cleveringa

and

the

Nwaokocha and thus the conclusion that
cases that reached consent orders should
be discounted as inapposite.

43

In prior pleadings in Petitioner’s
case, he has cited numerous cases in the
IDFPR’s

disciplinary

history

with

similar fact patterns to Petitioner’s that
have

received

significantly

lesser

sanctions. It is clear from all of the cases
presented, including cases that went to
formal hearings, that an indefinite
suspension for a minimum of two years
or even a minimum of one year is an
abuse of the IDFPR’s discretion and is
overly harsh. Petitioner answered the
questions on the DEA applications
truthfully when he answered “Yes” to the
question

asking

if

he

was

ever

disciplined; he just could not show that
the necessary additional information
was included because his attorney had

44

passed away. An indefinite suspension
for

what

can

be

described

as

administrative error is overtly distinct
from sanctions imposed by the IDFPR in
the past, even for intentional omissions,
and is exactly the kind of discipline that
the Supreme Court of the United States
should

reverse

discipline

more

and
in

remand
keeping

for

a

and

consistent with precedent.2

2

Past cases cited by Petitioner, where Illinois physicians were

disciplined for failing to report information on license renewals,
shows the IDFPR imposed probations the majority of the time,
and 30-day fixed suspensions when the physician had a
disciplinary background. There are no other cases, found by
either party, where the IDFPR imposed a suspension longer than
30 days.

45

The IDFPR reduced Petitioner’s
discipline from a two-year to a one-year
indefinite suspension after the second
remand and was prepared to make that
decision the final say in the matter
before Petitioner appealed the harsh
discipline once again. The fact that the
IDFPR was satisfied with a one-year
period
opposed

of
to

indefinite
the

suspension

two-year

as

indefinite

suspension shows the arbitrary nature of
these decisions. Without guidance from
prior disciplinary sanctions rendered in
similar cases, the IDFPR is left to
basically throw a dart on a disciplinary
dart board. If this Court chooses not to
remand Petitioner’s case back to the
IDFPR, we ask that this Court remand

46

back to the Cook County Circuit Court
with

instructions

to

use

past

administrative cases not brought up in
the administrative record to determine
the

appropriate

sanction

against

Petitioner.
II.

A CONFLICT EXISTS IN THE
ILLINOIS APPELLATE COURT
REGARDING WHETHER
COMPARISONS TO PREVIOUS
DISCIPLINARY CASES NEED TO
BE ARGUED AT THE
ADMINISTRATIVE LEVEL IN
ORDER TO CONSIDER THEM ON
REVIEW, AND THE APPELLATE
COURT JUSTICES IN THIS CASE
DISAGREED ON THIS ISSUE.
For the first time in the long judicial
history of this case, involving many
remands, the Cook County Circuit Court
and the Illinois Appellate Court, First
District, both determined they could not
review administrative decisions that are
47

not referenced as part of a published
Appellate Court case or within the
administrative record, as defined in
Section

10-35

Administrative
conclusion

is

of

the

Procedure
incorrect

Illinois
Act.

and

This

unduly

restrictive to reviewing courts, like this
Court. In fact, there is a split among the
justices who rendered the most recent
Appellate Court decision in this case.
Justice

Delort,

concurrence

writing

in

special

the

final

order,

with

reasoned that “[m]any administrative
agencies maintain extensive archives of
their decisions which are indexed and
published for the benefit of litigants,
courts, and similar agencies.” Justice
Delort went on to state that “[w]hile

48

administrative agency decisions are not
binding on this court, we may consider
them

for

their

persuasive

reasoning…[i]n some fields, the number
of published agency cases far exceeds the
number of published judicial opinions.
Therefore, I do not agree there should be
a hard-and-fast rule prohibiting a court
from considering an agency decision if it
was not cited before the agency itself.”3
Justice Delort’s understanding of
administrative

agencies

and

the

usefulness of their broad accessible
archives

to

reviewing

courts

is

persuasive, and Petitioner asks this

3

Olefsky v. IDFPR and Jessica Baer, 2020 IL App (1st) 191059-

U, 20.

49

Court to agree with Justice Delort’s
concurrence

on

this

reviewing

courts

issue
are

so

that

able

to

meaningfully analyze agency decisions
and

review

the

appropriateness

of

administrative disciplinary sanctions.
Specifically, what this Court can set a
precedent for, is to make a ruling stating
comparable administrative cases are
more akin to relevant case law than
anything

else.

Past

administrative

decisions should act as guidance to the
IDFPR, and reviewing courts, because
they often times dealt with similar fact
patterns and the same applicable law.
Like case law, where a past decision
dealt with similar facts and the same
law, these decisions can help an agency

50

reach fair decisions. The foundation of
our jurisprudence is preceding case law
which can be brought up at any point
during an appeal. The Appellate Court’s
entire reasoning for why administrative
decisions are not similar to Appellate
Court decisions is that the Appellate
Court does not have the same access to
administrative cases that it does to
Appellate Court decisions. But this
reasoning is incorrect. As Justice Delort
stated, the IDFPR has a large and, more
importantly, accessible databank of past
cases. Every final decision after an
administrative

hearing,

or

after

a

settlement agreement, is public and can
be requested by a citizen or a court. In
fact, by citing to comparable cases of

51

other physicians, Petitioner is citing to
comparable cases the same way a
Petitioner would cite to relevant case law
in a civil case.
Case law can be brought up at any
point during an appeal. By citing to
comparable

administrative

cases

involving other physicians, Petitioner is
not presenting new facts of his case
outside

of

the

record

on

review.

Petitioner is citing to comparable cases
the same way a Petitioner would cite to
relevant case law in a civil case. This
Court need not look any further than
every administrative step in Petitioner’s
procedural history to see courts allow
this exact sort of comparative analysis.
Up until Judge Hall’s most recent

52

decision

in

the

Circuit

Court,

all

reviewing courts in this case allowed the
review of past administrative decisions.
It cannot be overstated that there
is no opportunity, at any stage of the
proceedings, to put in the administrative
record a comparison of past cases to the
final sanction imposed by the IDFPR
which is rendered by the Director of the
agency, not by the ALJ who hears the
case. The Appellate Court is asking for
an

impossibility

and

is

providing

administrative agencies with blanket
approval to issue arbitrarily harsh
sanctions – because the licensees will be
prevented

from

showing

that

sanctions are, in fact overly harsh.

53

the

The procedural scheme of the hearing
process prohibits a respondent such as
Petitioner from entering into the record
beneficial prior cases with similar fact
patterns. The administrative law judge
at the IDFPR does not render a final
decision on whether or not a licensed
professional is to be disciplined. The ALJ
issues a recommendation, which goes to
the disciplinary board. The Board then
issues its own recommendation and
Petitioner has twenty (20) days to file a
post-hearing motion asking the Director
of the agency to grant a rehearing or
order contrary action, and the motion is
limited by statute to only stating and
supporting the grounds for a rehearing
or a different outcome.

54

225 ILCS

60/40(a).
opportunity

At this point, the only
to

challenge

the

recommendation of the Board is limited
by the Act to just raising the grounds for
a rehearing or contrary action to the
recommendation made by the Board. 225
ILCS 60/37, 60/40. The Director of the
IDFPR then determines the actual final
sanction.

Frequently, the Director

enters a sanction that is different than
that of the recommendation of the ALJ
and/or the Board, and is often much more
harsh.

See, Kafin.

There is no prior

notice to the Licensee before the Director
issues

a

decision

and

motions

to

reconsider the Director’s, then, final
decision are prohibited. There is no
opportunity for the Licensee to challenge

55

the harshness of the discipline imposed
in a decision by the Director, and the
Licensee has no opportunity at the
agency level to ever actually cite similar
cases or explain how the current sanction
is an abuse of discretion once the
Director’s decision is issued. The only
recourse is administrative review where
the Licensee has the first opportunity to
compare the final sanction imposed by
the

Director

to

the

IDFPR’s

past

sanctions for similar violations. It is
crucial

for

the

Supreme

Court

to

understand what the Illinois Supreme
Court, Appellate Court, and Circuit
Court failed to understand: that because
the Director issues the sanction, and
there are no administrative steps within

56

the agency after the sanction is issued,
the first opportunity to compare the
sanction to past administrative decisions
is during administrative review. 5 ILCS
100/10-50.
It is a violation of Petitioner’s right to
due process to require him to cite every
applicable similar administrative case
when he has does not know the ultimate
results of his hearing. Due process,
which is required for most extra judicial
proceedings under the 5th and 14th
Amendments,

has

been

applied

to

administrative hearings like this case for
decades. For example, in Morrissey v.
Brewer, 408 U.S. 471, 481-82 (1972), the
Court held parole release is protected by
due process on the grounds that it

57

included many of the "core values of
unqualified liberty and its termination
inflicts a 'grievous loss' on the parolee
and often on others." In Bell v. Burson,
402 U.S. 535, 539 (1971), this Court held
that the suspension of a driver's license
required due process protection solely
because of its importance. Petitioner’s
physician and surgeon license requires
this same protection because there is a
property interest in someone’s license to
work and their ability to work is an
important aspect of their life and
livelihood. “Even though a person has no
‘right’ to a valuable government benefit
and even though the government may
deny him the benefit for any number of
reasons, it may not do so on a basis that

58

infringes his constitutionally protected
interests” Perry v. Sindermann, 408 U.S.
593, 597 (1972). If this Court does not
step in, Illinois and many other states
will

continue

to

force

licensed

professionals to cite past administrative
decisions that they guess and hope are
similar to their case, but they cannot
know for sure because their case lacks a
final decision. It is an impossibility that
spits

in

the

face

of

due

process

requirements in this country.
Furthermore, the argument that past
administrative cases have to first be
brought up during the administrative
hearing is not just legally wrong but also
entirely contrary to previous court
decisions in Petitioner’s case. When

59

Petitioner first appealed the IDFPR’s
decision to the Appellate Court, there
was no finding that Petitioner needed to
compare similar disciplinary decisions
imposed by the IDFPR when at the
administrative

level.

While

the

Appellate Court did not reach a ruling on
whether or not the discipline imposed
was an abuse of discretion, it could have
held the argument was not timely or
waived. They did not make such a ruling.
The Circuit Court did not make that
ruling the first two times the case was in
front of the Circuit Court. In fact, the
Circuit

Court

repeatedly

ordered

Petitioner and Defendants to present
additional comparable cases by which
the judge could gauge the fairness of the

60

discipline imposed against Petitioner.
Yet,

while

the

Circuit

Court

acknowledged that the comparable cases
favored a lesser sanction than a one-year
indefinite suspension (second order on
remand), it created a procedural hurdle
that neither the Circuit Court nor the
Appellate

Court

imposed

against

Petitioner in prior rulings. Thus, it
wasn’t

until

this

most

recent

administrative appeal after the second
remand that the Circuit Court ruled
against Petitioner on these new grounds.
Even if this Court were to disagree
with Petitioner and Justice Delort’s
arguments

regarding

past

administrative cases, this Court can and
should take the easy route to remanding

61

this case because Petitioner argued at
the administrative level that there is a
requirement for uniformity in sanctions
and that the IDFPR violated that
requirement.

In

Petitioner’s

Memorandum in Support of Motion for
Rehearing, filed after the formal hearing
and after the Administrative Law Judge
and Medical Disciplinary Board both
gave

their

recommendations

for

discipline in this case, Petitioner first
raised the uniformity issue. Petitioner
stated,

regarding

the

discipline

recommended by the ALJ and the
Medical Disciplinary Board (“Board”),
“[t]his is contrary to the requirement
that the IDFPR sanctions be consistent.
See Gruwell v. Ill. Dep’t of Fin. & Prof’l

62

Regulation, 406 Ill. App. 3d 283, 296 (4th
Dist. 2010); Kafin v. Div. of Prof’l
Regulation, 2012 IL App (1st) 111875;
2012 Ill. App. LEXIS 384 (1st Dist. 2012);
Arceo v. Selcke, 226 Ill. App. 3d 166, 172
(1st Dist. 1992). Copies of relevant
documents

from

other

cases

are

attached.” Id. Petitioner went on to
describe two different comparable cases,
one of which went to a formal hearing,
and

then

stated

the

recommended

decision, which proposes to suspend Dr.
Olefsky’s medical license for what is
essentially a failure to report the denial
of a DEA Registration is unusual and
unduly harsh in comparison to other
disciplines imposed by the Department.
Petitioner’s argument that the discipline

63

is an abuse of discretion for being overly
harsh in comparison to similar cases has
been made at every stage of Petitioner’s
case
The impact that a two-year indefinite
suspension or even the one-year period
set forth in the second order on remand
would have on Petitioner is enormous.
Petitioner would most likely have to end
his medical career given how long it
would be before he could practice again.
This

would

include

the

period

of

indefinite suspension plus the time for
the IDFPR to act on a petition for
restoration, which could very likely
include another formal hearing. See, 225
ILCS 60/43. The effect of this process
would increase the period of indefinite

64

suspension to much longer than the
minimum period imposed. Furthermore,
Petitioner’s practice is very unique in
that he only makes house calls and there
are very few physicians in Illinois who
could take over this sort of practice and
all of Petitioner’s patients. More than
just the impact this case would have on
Petitioner, this Court can help clarify
administrative sanctions for all 50 states
and dozens of federal agencies if it rules
on Petitioner’s case. This Court is the
last opportunity and the final arbiter for
determining if past administrative cases
can be used like case law to determine
whether a disciplinary sanction is an
abuse

of

discretion

or

if

past

administrative cases are more similar to

65

facts in a case that have to brought up
during a formal hearing. Additionally,
this Court needs to determine for the
entire country if comparisons between
cases that settled without a hearing can
be made to cases that went to formal
hearings. The lower courts are violating
licensed professionals’ due process rights
by not allowing them the full arsenal of
past

administrative

administrative

cases

during

review.

These

determinations are necessary to afford
all

licensees

due

process

and

an

opportunity to fully defend themselves
during administrative hearings.

66

CONCLUSION
For the foregoing reasons, the judgment below
should be reversed and remanded.

Respectfully submitted,

TIMOTHY J. BINGHAM
LILLIAN S. WALANKA
CRICK WALANKA LAW
GROUP, LTD.
111 W. Washington St.,
Suite 1820
Chicago, IL 60602

MICHAEL K. GOLDBERG*
ROBERT A.BAUERSCHMIDT
GOLDBERG LAW GROUP
120 S. Riverside Plaza,
Suite 1675
Chicago, IL 60606
(312) 930-5600
mgoldberg@
goldberglawoffice.com
*Counsel of Record

67

APPENDIX

SUPREME COURT OF ILLINOIS
Supreme Court Building
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185
November 18, 2020
In re: Alan H. Olefsky, M.D., petitioner, v. The
Illinois Department of Financial and Professional
Regulation et al., etc., respondents. Leave to appeal,
Appellate Court, First District. 126348
The Supreme Court today DENIED the Petition for
Leave to Appeal in the above entitled cause. The
mandate of this Court will issue to the Appellate
Court on 12/23/2020.
Very truly yours,
Carolyn Taft Grosboll
Clerk of the Supreme Court

App. 1

2020 IL App (1st) 191059-U
Order Files: June 30, 2020
1-19-1059
NOTICE: This order was filed under Supreme Court
Rule 23 and may not be cited as precedent by any
party except in the limited circumstances allowed
under Rule 23(e)(1).

App. 2

IN THE
APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT

ALAN H. OLEFSKY, M.D.,
Appeal from the Circuit Court of
Plaintiff-Appellant and Cross-Appellee,
Cook County.
v.

)
)
)
)
)
)
ILLINOIS DEPARTMENT OF FINANCIAL
)
AND PROFESSIONAL REGULATION;
)
CECILA ABUNDIS, Acting Director of
)
The Division of Professional Regulation of
)
The Department of Financial and Professional
)
Regulation; and BRENT E. ADAMS, Secretary of )
The Illinois Department of Financial and
)
Professional Regulation,
)
)
Defendants-Appellees and Cross-Appellants. )
)
Honorable Sophia Hall,
)
Judge Presiding.
)

JUSTICE ROCHFORD delivered the judgment of the
courts.
Presiding Justice Hoffman concurred in the
judgment.
App. 3

Justice Delort specially concurred.
ORDER
Held:

Administrative agency’s determination
That plaintiff’s medical license should
be indefinitely suspended for a
minimum of two years is affirmed, with
that decision was not an abuse of the
department's discretion.
Plaintiff-appellant,

Alan

H

Olefsky,

MD,

brought this action for administrative review against
defendants-appellees, the Illinois Department of
Financial

and

Abundis,

Acting

Professional
Director

Regulation;
of

the

Cecilia

Division

of

Professional Regulation of the Illinois Department of
Financial and Professional Regulation; and Brent E.
Adams, Secretary of the Illinois Department of
Financial and Professional Regulation (collectively,
the

Department),

seeking

App. 4

reversal

of

the

Department's conclusion that plaintiff’s medical
license should be indefinitely suspended for a
minimum of one year due to multiple violations of the
Medical Practice Act of 1987 (the Act). 225 ILCS 60/1
et seq. (2014). The Department filed a cross-appeal,
contending that this court should instead reinstate a
minimum two-year suspension that had been imposed
upon plaintiff prior to being rejected by the circuit
court upon administrative review. For the following
reasons, we affirm the two-year suspension.
The record reflects that plaintiff was first
licensed as a physician in Florida in 1987 and in
Illinois in 1988. The record also reflects that plaintiff
has a significant history of drug and alcohol abuse,
as well as related discipline with respect to his state
and federal medical licenses and permits.
In 1989, plaintiff presented two forged
prescriptions for a fictitious patient to a pharmacy in

App. 5

Florida. While plaintiff was acquitted of criminal
charges brought by the state of Florida, the incident
resulted in the federal Drug Enforcement Agency
(DEA) revoking the plaintiff’s federal registration
and permit to prescribe controlled substances in
1992. As a result of this action taken by the DEA, the
department's predecessor and plaintiff agreed to the
entry of a consent order placing plaintiff’s Illinois
medical license on probation for one year.
Between 2002 and 2004, after plaintiff
regained his DEA registration, he issued a number of
false prescriptions for controlled substances and the
names of others for his personal use. He was also
convicted for driving under the influence. These
incidents led to the Department to temporarily
suspend plaintiff’s medical license and his Illinois
controlled substance license. In November 2006, the
Department and plaintiff agreed to the entry of a

App. 6

second consent order placing plaintiffs medical
license on probation for a minimum of five years. The
conditions of that probation required plaintiff to,
inter alia, abstain from alcohol and submit quarterly
reports as to his compliance with his probation
period however, in January 2007, plaintiff was
hospitalized for alcohol poisoning, which led the
Department to again temporarily suspend plaintiff's
medical license.
In May 2007, the Department and plaintiff
agreed to the entry of a third consent order which
again placed plaintiff’s medical license on probation
for a minimum of five years, to begin at the
conclusion of an additional period of temporary
suspension. Conditions of that probation again
required plaintiff to submit quarterly reports as to
his compliance with his probation. This probationary

App. 7

period began in December 2007, when plaintiff's
license was restored to active status.
The record also reflects that plaintiff twice
applied to again obtain a DEA registration to
prescribe controlled substances. His first attempt
was denied in a final order entered in August 2007
(2007 DEA order), while the second application was
denied in a final order entered in April 2011 (2011
DEA order). The DEA's decision in each instance was
based, in part, upon the DEA's conclusion that the
public interest would not be served by granting a
registration to plaintiff in light of his extensive
history of alcohol and drug use and his fraudulent
use of false prescriptions. Moreover, while plaintiff
waived his right to a hearing with respect to the
denial of his initial application, the 2011 DEA order
was entered only after an administrative hearing at

App. 8

which the plaintiff was found to have provided false
testimony.
In June 2013, the Department initiated the
proceedings at issue here by filing an administrative
complaint against plaintiff seeking further discipline
with respect to his Illinois medical license in Illinois
controlled substance license. The operative, twocount, second amended complaint was filed in July
2014. In count I, the Department alleged that
plaintiff had failed to report the 2007 DEA order to
the Department, either in any of the quarterly
reports he was required to file pursuant to his
probation, or in his 2008 application for the renewal
of his Illinois medical license, in violation of sections
22(A)(9), 22(A)(12), 22(A)(15), and 22(A)(34) of the
Act. 225 ILCS 60/22(A)(9), 22(A)(12), 22(A)(15),
22(A)(34) (West 2014). In count II, the Department
alleged that plaintiff had failed to report the 2011

App. 9

DEA order to the Department, either in any of the
quarterly reports he was required to file pursuant to
his probation , or in his 2011 application for the
renewal of his Illinois medical license, in violation of
sections 22(A)(9), 22(A)(12), 22(A)(15), and 22(A)(34)
of the Act. Id. Each count, the DEA asserted that
these failures required that plaintiffs medical license
in Illinois controlled substance license be
“suspended, revoked, or otherwise disciplined.”
Plaintiff did not file an answer to this administrative
complaint.
An evidentiary hearing was held before an
administrative law judge (ALJ) in July 2014. the
Department called plaintiff and Temple Hall, the
Department probation compliance investigator
assigned to plaintiff, as witnesses. The Department
also introduced numerous exhibits into evidence,
which included extensive documentary evidence

App. 10

regarding defendants prior federal and Illinois
disciplinary proceedings, the three prior consent
orders, the 2007 and 2011 DEA orders, the quarterly
reports filed by plaintiff in accordance with his
probation, in plaintiff's 2008 and 2011 applications
for renewal of his Illinois medical license. Plaintiff
testified briefly on his own behalf and entered a
single document into evidence.
The evidence presented at the hearing
demonstrated that plaintiff never explicitly informed
the Department of the 2007 or 2011 DEA orders
denying his applications for DEA registration. Ms.
Hall specifically testified that this information was
not contained in any of plaintiff's quarterly reports,
and that neither plaintiff, nor anyone on his behalf
notified her of those orders in any other manner.
This was despite the fact that plaintiff's quarterly
reports required him to indicate whether or not he

App. 11

had “been terminated/suspended/disciplined, [or]
been denied/lost privileges or resigned,” and to
provide a “detailed explanation” Do any affirmative
answer to that question. Miss Hall did testify that
two quarterly reports for 2010 could not be located in
the Department's files, and they were, therefore, not
presented at the hearing. Ms. Hall also testified that
any communications received from plaintiff or his
attorney should be in the Department’s files.
In addition, neither DEA order was reported
on the face of plaintiff's 2008 or 2011 applications for
renewal of his Illinois medical license. This is despite
the fact that the 2008 application specifically
required plaintiff to indicate if he had been denied a
license or permit in the last three years and to
“attach” a “detailed explanation” for any affirmative
response. While in his 2008 renewal application
plaintiff affirmatively responded “yes” to this

App. 12

question, he merely stated that an explanation was
“submitted [and] on file.” The 2008 renewal
application introduced by the Department contained
no attachment containing a detailed explanation.
For his part, plaintiff affirmatively testified
that he did inform the Department about the 2007
DEA order, but his testimony about how this
occurred was vague and inconsistent. He
alternatively testified that he “believed” or
“assumed” that his attorney provided that
information. He provided similarly vague and
inconsistent testimony regarding how the
Department was notified of the 2011 DEA order.
Plaintiff introduced an unsigned, undated document
into evidence at the hearing that contained a
narrative of his disciplinary history from 1989 to
2007. While this narrative did disclose the 2007 DEA
order, it made no mention of the 2011 DEA order.

App. 13

Once again, plaintiff testified that he “believed” that
it had been prepared by his attorney and provided to
the Department. Plaintiff provided no other proof as
to win or how this document was transmitted to the
Department, or any evidence that it was actually
received. The only date on the document itself was
an indication that it had been faxed in 2014, well
after the Department initiated this administrative
action against plaintiff.
In September 2014, the ALJ entered a written
report and recommendation that plaintiff be found to
have committed six violations of four separate
sections of the Act. These included the violations of
sections 22(A)(9) and 22(A)(34) at issue on appeal.
With respect to section 22(A)(9), Which
provides that discipline may be imposed for a doctor’s
“[f[raud or misrepresentation in applying for, or
procuring, a license under this Act or in connection

App. 14

with applying for a renewal of a license under this
Act” (225 ILCS 60/22(A)(9) (West 2014)), The ALJ
concluded that plaintiff improperly failed to report
the 2007 DEA order in his 2008 renewal application.
And coming to this conclusion, the ALJ specifically
relied upon the documentary evidence, the testimony
of Ms. Hall, and its conclusion that plaintiff was
evasive and his testimony was inconsistent, based on
conjecture, and not credible. The document plaintiff
presented was also found to be nothing more than a
“self-serving” statement, with plaintiff's testimony
regarding the document found to be incredible. In the
end, the ALJ concluded that the Department
presented evidence that the 2007 DEA order was
never reported in plaintiffs 2008 renewal application,
and that plaintiff simply failed to present any
credible evidence that he had properly reported the
2007 DEA order in his 2008 renewal application.

App. 15

However, the ALJ specifically found that plaintiff did
not violate section 22(A)(9) of the Act by failing to
report the 2011 DEA order in his 2011 application for
renewal of his Illinois medical license, as it was not
clear from the record that plaintiff actually learned
of that order prior to filing the 2011 application.
With respect to section 22(A)(34 of the Act,
Which provides that the Department may impose
discipline for the “failure to report to the Department
any adverse final action taken against them by
another licensing jurisdiction, *** by any
governmental agency, by any law enforcement
agency, or by any court for acts or conduct similar to
acts or conduct which would constitute grounds for
action as defined in this Section,” (225 ILCS
60/22(A)(34) (West 2014)), The ALJ concluded that
plaintiff twice violated this section by failing to
report the 2007 and 2011 DEA orders to the

App. 16

Department. Specifically, plaintiff failed to report
these orders in his 2008 or 2011 license renewal
applications or in any of his quarterly probation
reports. The ALJ’s conclusion was supported by
similar factual and credibility determinations as
discussed above, with the ALJ again indicating that
it found plaintiffs evidence and testimony incredible.
In light of his findings and conclusions, the
ALJ recommended that plaintiffs medical license be
indefinitely suspended for a minimum of three years.

In October 2014, the Department’s Medical
Disciplinary Review Board Adopted the ALJ's
findings, conclusions, and recommendations, and
recommended that the Director of the Department do
likewise. Plaintiff filed a petition for rehearing, and
that petition was denied by the Department's
Director in a written order entered in December

App. 17

2014. That order also indefinitely suspended
plaintiff's medical license for a minimum of three
years.
Plaintiff filed an action for administrative
review in January 2014, seeking reversal of the
department's conclusion that he had violated the act
and that his license should, therefore, be suspended.
After full briefing by the parties, the circuit court
issued a written decision in August 2015, in which it
confirmed the Department's decision in part and
reversed it in part. Specifically, the circuit court
found that plaintiff was properly found to have: (1)
violated section 22(A)(9) once by improperly failing to
report the 2007 DEA order in his 2008 renewal
application, and (2) violated section 22(A)(34) twice
by failing to report the 2007 and 2011 DEA orders in
his 2008 or 2011 license renewal application, or in
any of his quarterly probation reports. The

App. 18

remaining three statutory violations of sections
22(A)(12) and 22(A)(15) of the Act found by the
Department were found to be unfounded. The
written decision was silent with respect to plaintiff’s
request that the discipline imposed by the
Department be reversed.
Plaintiff filed a motion for reconsideration and
clarification in which he asked the circuit court to
reverse its decision to affirm the department's
finding with respect to the violations of sections
22(A)(9) and 22(A)(34) of the Act and the suspension
of his license, or to clarify the proper discipline, if
any, to be imposed by the Department in light of the
circuit court's partial reversal. The circuit court
denied plaintiff’s motion, and plaintiff filed a prior
appeal.
In a previous order, we affirmed the circuit
court's decision to confirm the department's

App. 19

conclusion that plaintiff committed only three total
violations of sections 22(A)(9) and 22(A)(34) of the
Act, and remanded this matter to the Department for
reconsideration of the appropriate discipline to be
imposed for those three confirmed violations. Olefsky
v. The Illinois Department of Financial and
Professional Regulation, 2016 IL App (1st) 152843-U,
¶ 65. We explicitly expressed “no opinion on what, if
any, modification to the discipline should be made in
light of reversal of some of the violations on
administrative review.” Id. ¶ 64.
in a March 2017 written order entered a
panromantic, the Department concluded that all the
factors supporting its original three-year suspension
remained in place, except that the total number of
confirmed violations of the Act had been reduced
from six to three. Finding that this reduction
warranted a corresponding reduction in the

App. 20

discipline imposed upon plaintiff, the Department
entered an order that indefinitely suspended
plaintiff’s medical license for a minimum of two
years.
Plaintiff again sought administrative review,
and in January 2018 the circuit court reversed this
decision and remanded the matter to the Department
for further reconsideration of the appropriate
discipline to be imposed upon plaintiff. The circuit
court concluded that a two-year suspension of
plaintiff’s license was “not appropriate” in light of
lesser sanctions imposed by the Department in order
situations, including other cases referenced by
plaintiff for the first time in the circuit court upon
his second request for administrative review.
Thereafter, the Department issued its final
administrative order in April 2018. Therein, under
protest and “only in an effort to comply with the

App. 21

Court’s remand and to move the case forward,” the
Department further reduced its sanction by
indefinitely suspending plaintiff’s medical license for
a minimum of one year.
Plaintiff against sought administrative review
of this decision in the circuit court. After extensive
briefing, which again involved plaintiff citing to and
comparing his case with other Department decisions
imposing lesser sanctions in purportedly similar or
even more egregious circumstances, the circuit court
affirmed the one-year suspension of plaintiff’s license
in April 2019. While the circuit court stated that it
was not convinced that the comparable cases cited by
plaintiff warranted a different result, it found hat it
was precluded from considered these cases because
they were not presented to the Department below
and where therefore not a part of the administrative

App. 22

record. Therefore, the circuit court concluded “I have
to affirm.”
Plaintiff filed a timely appeal from that
decision. Thereafter, the Department filed a timely
cross-appeal, in which it challenged the circuit
court’s prior reversal of its decision to sanction
plaintiff with a suspension of his medical license for
a minimum of two years.
On appeal, plaintiff contends the discipline
ultimately imposed upon him by the Department – a
one-year suspension of his medical license – was
excessive and should be reversed. In its cross-appeal,
the Department asks us to affirm its initial decision
upon remand to suspend plaintiff’s license for a
minimum of two years.
For the following reasons, we agree with the
Department that its initial imposition of a minimum
two-year suspension of plaintiff’s medical license

App. 23

upon remand should be affirmed. As such, any
consideration of the circuit court proceedings
subsequent to that decision, and the Department’s
subsequent imposition of a one-year suspension –
under protest – have been rendered moot. In re
Jonathan P., 399 Ill. App. 3d 396, 400 (2010)
(“Generally, courts of review do not decide moot
questions, render advisory opinions, or consider
issues where the result will not be affected
regardless of how those issues are decided.”).
Our review of the Department’s final
administrative decision is governed by the
Administrative Review Law. 735 ILCS 5/3-101, et
seq. (West 2014); 225 ILCS 60/41(a) (West 2014).
While our review extends to all questions of law and
fact presented by the record (735 ILCS 5/3-110 (West
2014)), “[i]n administrative cases, our role is to
review the decision of the administrative agency, not

App. 24

the determination of the circuit court.” Marconi v.
Chicago Heights Police Pension Board, 225 Ill. 2d
497, 531 (2006).
The standard of review we apply to the issues
before us depends on the question presented. In
general, a reviewing court defers to the
administrative agency’s expertise and experience in
determining what sanction is appropriate to protect
the public interest. Massa v. Department of
Registration & Education, 116 Ill. 2d 376, 388 (1987).
As such, the standard of review is whether the
Department abused its discretion in the imposition of
the sanction. Danigeles v. Illinois Department of
Financial & Professional Regulation, 2015 IL App
(1st) 142622, ¶ 93.
In addition, “[t]he findings and conclusions of
the administrative agency on questions of fact shall
be held to be prima facie true and correct.” 735 ILCS

App. 25

5/3-110 (West 2018). Moreover, “[i]t is not our
function to reevaluate witness credibility or resolve
conflicting evidence.” Parikh v. Division of
Professional Regulation of Department of Financial
& Professional Regulation, 2014 IL App (1st) 123319,
¶ 28. Furthermore, “under any standard of review, a
plaintiff to an administrative proceeding bears the
burden of proof, and relief will be denied if he or she
fails to sustain that burden. Marconi, 225 Ill. 2d at
532-33.
We begin by addressing several preliminary
issues, beginning with that plaintiff claims to be a
“jurisdictional” issue.
Specifically, plaintiff notes that while he has
now been found to have committed three violations of
the Act, only one of those remaining violations was
contained in count II of the operative complaint, a
confirmed violation of plaintiff’s responsibility to

App. 26

report the 2011 DEA order to the Department, in
violation of section 22(A)(34) of the Act. Plaintiff then
cites to section 23 of the Act, which provides that
“[w]hen the Department has received written reports
concerning incidents required to be reported in items
(34), (35), and (36) of subsection (A) of Section 22, the
licensee’s failure to report the incident to the
Department under those items shall not be the sole
grounds for disciplinary action.” 225 ILCS 60/23
(West 2018). In light of this statutory language,
plaintiff contends that “this Court should find that
the Department lacked subject matter jurisdiction on
remand to discipline Plaintiff for the second count
when all that remained in that count was on
violation under 22(A)(34), which by the plain
language of the Act cannot be the sole basis for
discipline.” We reject this argument for several
reasons.

App. 27

First, the “term ‘jurisdiction’ is not strictly
applicable when referring to an administrative
agency” and, instead, the term is used “as shorthand
for describing the agency’s authority to act.” Zahn v.
North American Power & Gas, LLC, 2016 IL 120526,
¶ 14 n. 2. Even if the concept of “subject matter
jurisdiction” could be applied to the Department,
such jurisdiction “refers to the power of a court to
hear and determine cases of the general class to
which the proceeding in question belongs.” Belleville
Toyota, Inc. v. Toyota Motor Sales, U.S.A., Inc., 199
Ill. 2d 325, 334 (2002). Here, the Department is
vested with the authority to decide the type of case
that was presented here – namely, whether plaintiff
violated the Act and what the appropriate penalty for
any violations should be. 225 ILCS 60/22 (West
2018). See also, Nwaokocha v. Illinois Department of
Financial & Professional Regulation, 2018 IL App

App. 28

(1st) 162614, ¶ 67. Any possible violation of section
23 of the Act would not deprive the Department of
“jurisdiction.”
Second, we also note that section 23 itself only
addresses reports required to be provided by certain
entities – including healthcare institutions, insurers,
professional associations, etc. – and not to plaintiff’s
independent, personal obligation to report certain
information to the Department. 225 ILCS 60/23
(West 2018). Under this section, and as relevant
here, it would only be if such an entity had made a
required report under section 22(A)(34) of the Act to
the Department that plaintiff’s failure to also make a
report to the Department of the same information
could “not be the sole grounds for disciplinary
action.” Id. That is simply not the situation
presented here. ¶ 35. Third, and as plaintiff himself
acknowledges, he has now been found to have

App. 29

committed three violations of the Act, including
violations of both sections 22(A)(9) and 22(A)(34) of
the Act. He was also explicitly discipline for
violations of both of those sections of the Act. A
violation of section 22(A)(9) is not addressed at all in
section 23 of the Act, and plaintiff’s violation of that
section and the plain record before us make it clear
that he was not disciplined solely for a violation to
which section 23 applies. His contention that count II
of the operative complaint contains only a single,
confirmed violation of section 22(A)(34) is
immaterial.
We next address plaintiff’s contention that the
Department did not have authority to impose an
“indefinite” suspension. We disagree.
As an initial matter, plaintiff has forfeited this
argument by raising it for the first time on appeal in
his reply brief. See Ill. S. Ct. R. 341(h)(7) (eff. May

App. 30

25, 2018) (Points not argued in opening brief “are
forfeited and shall not be raised in the reply brief, in
oral argument, or on petition for rehearing.”).
Forfeiture aside, section 22(A) of the Act specifically
permits the Department to “revoke, suspend, place
on probation, reprimand, refuse to issue or renew, or
take any other disciplinary or non-disciplinary action
as the Department may deem proper with regard to
the license or permit of any person used under this
Act” based upon the type of violations plaintiff has
been found to have committed. 225 ILCS 60/22(A)
(West 2018). Thereafter, “[a]t any time after the
successful completion of a term of probation,
suspension, or revocation of a license, the
Department may restore the license to the licensee,
unless after an investigation and a hearing, the
Secretary determines that restoration is not in the

App. 31

public interest.” (Emphasis added.) 225 ILCS 60/43
(West 2018).
These two sections of the Act have been
interpreted to grant the Department the authority to
suspend a medical license for a minimum period of
time, after which the Department may reinstate that
license after considering relevant factors at the
conclusion of that period. Albazzaz v. Illinois
Department of Financial & Professional Regulation,
314 Ill. App. 3d 97, 104 (2000). The Department’s
decision to indefinitely suspend plaintiff’s license for
a minimum amount of time falls well within this
authority.
Next, we consider the parties’ assertions with
respect to plaintiff’s citation to numerous
purportedly comparable disciplinary decisions
entered by the Department, both in the circuit court
and again upon appeal, even though those decisions

App. 32

were not previously cited in the administrative
proceeding before the Department and therefore are
not a part of the administrative record.
To begin with, to the extent that the parties
dispute the propriety of the circuit court’s
consideration of these decisions, that issue is
irrelevant. As noted above, “[i]n administrative
cases, our role is to review the decision of the
administrative agency, not the determination of the
circuit court.” Marconi, 225 Ill. 2d at 531. In
addition, we reiterate that because we agree with the
Department that its initial imposition of a minimum
two-year suspension of plaintiff’s medical license
upon remand should be affirmed, any question as to
the propriety of the circuit court proceedings
subsequent to that decision is moot.
Thus, the only relevant question is whether
this court, in the context of conducting out own

App. 33

administrative review of the Department’s decision,
may consider any of the Department decisions relied
upon by plaintiff on appeal, even though those
decisions were not previously cited in the
administrative record. We find that we may not.
The Administrative Review Law specifically
provides that upon administrative review, “[n]o new
or additional evidence in support of or in opposition
to any finding, order, determination or decision of the
administrative agency shall be heard by the court.”
735 ILCS 5/3-110 (West 2018). As such, the “statute
limits our review to the record before us; we may not
hear new or additional evidence.” Robbins v.
Carbondale Police Pension Fund of City of
Carbondale, Ill., 177 Ill. 2d 533, 538 (1997); Marconi,
225 Ill. 2d at 532 (“The statute, however, specifically
limits judicial review to the administrative record.”).
Furthermore, “[a]s a general rule, issues or defenses

App. 34

not raised before the administrative agency will not
be considered for the first time on administrative
review.” Carpetland U.S.A., Inc. v. Illinois
Department of Employment Security, 201 Ill. 2d 351,
396-97 (2002).
Here, defendant attempts to oppose the
discipline imposed by the Department in this case by
citation to purportedly comparable disciplinary
decisions entered by the Department in which a
lesser sanction was imposed, even though those
decisions were not cited during the administrative
proceeding below. This effort clearly runs counter to
the plain language of the Administrative Review Law
and other authority cited above, and we therefore
decline to consider these cases upon administrative
review.
In reaching this conclusion, we reject
plaintiff’s contention the Department decisions he

App. 35

seeks to cite for the first time on appeal are not
“evidence” that should have been presented before
the Department, but more like “case law” to which he
should be allowed to cite for the first time on appeal.
Plaintiff then cites to several cases he claims stand
for the proposition that comparable cases may be
considered for the first time on appeal in the context
of administrative review. Sonntag v. Stewart, 2015
IL App (2d) 140445, ¶ 21; Kafin v, Illinois
Department of Financial & Professional Regulation,
2012 IL App (1st) 111875, ¶¶ 43-50; Lamm v.
McRaith, 2012 IL App (1st 112123, ¶¶ 31-33.
However, in each of those cases the appellate
court compared the matter before it to other
published appellate court decisions as part of its
analysis, not to unpublished, non-precedential
decisions of an administrative proceeding. Id. We
find that there is a significant difference between the

App. 36

clearly permissible practice of citing to published
appellate court decisions upon administrative review
and an attempt to cite to purportedly comparable
administrative decisions for the first time in such a
context. The former we find permissible, the latter
we do not.
Having addressed these preliminary issues,
we turn to the heart of this appeal; i.e., whether the
Department abused its discretion in suspending
plaintiff’s medical license for a minimum of two
years.
As the parties acknowledge on appeal, courts
have applies two somewhat different tests in
reviewing an administrative sanction for an abuse of
discretion. We need not settle the parties’ dispute as
to which test is correct, as under either test the
plaintiff has failed to show an abuse of discretion.

App. 37

Under the Department’s preferred test, it is
generally recognized that upon administrative
review the court is not at liberty to substitute their
judgment for that of an agency. Wilson v. Illinois
Department of Professional Regulation, 317 Ill. App.
3d 57, 66 (2000). Therefore, a reviewing court will
not interfere with an agency’s decision to impose any
particular sanction unless the decision is
unreasonable, arbitrary or unrelated to the purpose
of the relevant statute. Singh v. Department of
Professional Regulation, 252 Ill. App. 3d 859, 870
(1993). As explained in Bultas v. Board of Fire &
Police Commissioners of City of Berwyn, 171 Ill. App.
3d 189, 197 (1988), under this test:
“given the limited standard overview of
determining whether the sanction was
arbitrarily selected, we must decline to
consider whether a more lenient sanction ***

App. 38

May have been more appropriate. We are
aware of no authority which properly permits
courts reviewing administrative decisions to re
weigh evidence, including mitigating factors,
for the purpose of determining that the
sanction *** is exceedingly harsh and, on that
basis, substituting some lesser penalty in its
place. Consideration of the relative severity of
discharge goes beyond the scope of our review
period to participate in such considerations
reduces the review of administrative decisions
to an exercise in second-guessing and ignores
the deference to be accorded to administrative
bodies.”
Applying this test to the matter before us, we
find no abuse of discretion in the imposition of a
suspension of plaintiff's medical license for a
minimum of two years. The record reflects that the

App. 39

Department specifically imposed this discipline only
after considering the seriousness of the offenses, the
presence of three, separate offenses, plaintiff
significant prior disciplinary history, and the lack of
contrition exhibited by plaintiff. All these factors are
expressly allowed to be considered by the
Department in imposing a sanction. 68 Ill. Adm.
Code 1130.200 (2013). Furthermore, the “purpose of
the Act it's to protect the public health and welfare
from those not qualified to practice medicine.”
Nwaokocha, 2018 IL App (1st) 162614, ¶ 63. Notably,
acting “dishonestly [is] inconsistent with the ‘high
standard of honesty and integrity imposed on the
medical profession.’” Id., citing Cicmanec v.
Department of Registration & Education, 182 Ill.
App. 3d 710, 718 (1989)).
On the facts before us and considering the
highly differential standard of review discussed

App. 40

above, we find that no abuse of discretion under the
Department's preferred test, where we cannot say
that its sanction was unreasonable, arbitrary or
unrelated to the purpose of the Act.
we come to a similar conclusion even if we
instead apply plaintiff's preferred task. As plaintiff
correctly notes, some courts addressing this issue
have recognized that the propriety of a sanction
imposed under the Act may also be reviewed for
abuse of discretion by questioning whether the
sanction is overly harsh in light of either: (1) any
mitigating circumstances, or (2) because it is out of
line with sanctions imposed in other cases with
similar facts. Kafin, 2012 IL App (1st) 111875, ¶¶ 4243; Siddiqui v. Illinois Dept. of Professional
Regulation, 307 Ill. App. 3d 753, 763-64 (1999).
With respect to any mitigating circumstances,
plaintiff contends that the department's two-year

App. 41

suspension is unduly harsh because: (1) he is being
sanctioned for a mere “technical violation” of the Act,
(2) he has been otherwise compliant with the
requirements of the Act and his prior probation, and
(3) he has never before been disciplined for any act of
dishonesty. We do not find these arguments
convincing.
Indeed, plaintiff's contention that he only
committed a “technical violation” is yet another
example of a long-demonstrated lack of contrition for
his actions, and his lack of respect for the high
standard of ethics and honesty required of doctors.
Defendant's prior disciplinary history and his actions
before the Department in this case – including his
continued minimization of the seriousness of his
offenses and his incredible testimony and efforts to
frustrate cross-examination before the Department –
are not mitigating evidence but rather evidence of

App. 42

aggravating factors. 68 Ill. Adm. Code 1130.200
(2013). Moreover, the fact that plaintiff may have
been otherwise compliant with his responsibilities
does not minimize the seriousness of the violations at
issue here. Finally, the record simply belies
plaintiff's attempt to portray himself as a historically
honest person with respect to the proper supervision
of his medical career. As noted above, plaintiff has
repeatedly been found to be less than honest with
both the DEA and the Department.
As to any comparison with purportedly similar
cases, we have already concluded that plaintiff may
only reply upon Department decisions that were
cited in the administrative proceeding. The record
reveals that plaintiff cited only two 2 purportedly
similar cases below.
However, one of those cases involved a matter
that was resolved through a consent order. See

App. 43

Department of Financial and Professional Regulation
v. Anhil Agarwal, No. 2013-2340. This court has
recognized that sanctions imposed via consent orders
cannot be meaningfully compared to sanctions
imposed after a full hearing in these circumstances.
Nwaokocha, 2018 IL App (1st) 162614, ¶ 57. And the
other case cited by plaintiff, Department of Financial
and Professional Regulation v. Christian Struven,
No. 2012-10529, Is clearly distinguishable. While
that matter went to a full hearing and a lesser
sanction was imposed for similar offenses, the
Department explicitly found that the doctor in that
case accepted that he had made a mistake, showed
contrition, and fully complied with the Department's
investigation. Such circumstances are not present
here.
Thus, under either test, we conclude that
plaintiff has failed to show that the Department

App. 44

abused its discretion in suspending plaintiff's
medical license for a minimum of two years.
For the foregoing reasons, we affirm the
department's March 2017 decision to indefinitely
suspend plaintiff's medical license for a minimum of
two years, and therefore reverse the circuit court’s
January 2018 order reversing that decision in
remanding for reconsideration, and vacate both the
Department's April 2018 decision under protest
pursuant to that remand and the circuit court’s final
April 2019 order affirming the Department's April
2018 decision.
Circuit court orders vacated in part and
reversed in part; Department’s decision is affirmed in
part and vacated in part.
JUSTICE DELORT, specially concurring:
I joined the majority's order in full with the
exception of ¶¶ 40-44. in those paragraphs, the

App. 45

majority addresses the plaintiffs reliance on
administrative agency decisions which he contends
had comparable facts but which resulted in lesser
discipline. The plaintiff did not present these
allegedly comparable decisions before the agency,
and the majority holds that by failing to do so, this
court may not consider them.

Many administrative agencies maintain
extensive archives of their decisions which are
indexed and published for the benefit of litigants,
courts, and similar agencies. See, e.g., Public
Employee Reporter for Illinois (Thompson Reuters),
Index of Electoral Board Decisions (Chicago Board of
Election Commissioners) (available at
https://app.chicagoelections.com/documents/general/I
ndexOfElectoralBoardDecisions.pdf). While
administrative agency decisions are not binding on

App. 46

this court, we may consider them for their persuasive
reasoning. E. Richland Educ. Ass’n IEA-NEA v.
Illinois Educ. Labor Relations Bd., 173 Ill. App. 3d
858, 902 (1988) (holding that decisions of the
National Labor Relations Board were persuasive
authority). In some fields, the number of published
agency cases far exceeds the number of published
judicial opinions. Therefore, I do not agree there
should be a hard-and-fast rule prohibiting a court
from considering an agency decision if it was not
cited before the agency itself.
Despite this disagreement, I do not find the
plaintiff’s reliance on the other agency decisions
persuasive. I concur with the remainder of the
majority’s reasoning and its judgment.

App. 47

STATE OF ILLINOIS DEPARTMENT OF
FINANCIAL
AND PROFESSIONAL REGULATION,
DIVISION OF PROFESSIONAL REGULATION
of the State of Illinois,
Complainant,

v.

No. 2010-02234

Alan H. Olefsky, M.D.,
License No. 036-78254.
Respondent,

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER
This matter comes before the Director of the
Division of Professional Regulation(“Director”) of the
Department of Financial and Professional Regulation
(“Department”) on an Order dated January 12, 2018,
by the Circuit Court of Cook County in Case No. 15CH-00125, vacating the suspension of Respondent’s
medical license and remanding the matter to the

App. 48

Director for imposition of a lesser sanction. The
Director has been fully informed and advised in this
matter.
HISTORY
On July 21, 2014, the Department filed a
Second Amended Complaint in two counts, alleging,
in summary, that Respondent failed to disclose to the
Department that the Drug Enforcement
Administration (the “DEA”) had denied his DEA
Registration application in 2007 and again in 2011.
Respondent failed to disclose the DEA denials as
required in quarterly reports to the Department and
on renewals of his physician license in 2008 and
2011. Subsequent to hearing, on September 25, 2014,
the Administrative Law Judge Erik D. Gruber issued
a Report and Recommendation (the “ALJ Report”),
concluding that the Department proved by clear and
convincing evidence that Respondent violated 225

App. 49

ILCS 60/22(A)(9), (12), and (34) as alleged in Count I
and 225 ILCS 60/22(12), (15), and (34) as alleged in
Count II. The ALJ Report recommended to the
Illinois Medical Disciplinary Board (the “Board”) that
Respondent’s Physician and Surgeon License be
indefinitely suspended for a minimum period of three
(3) years.
On October 1, 2014, the Board issued its
Findings of Fact and Conclusions of Law of the ALJ
Report and Recommendation and recommended that
Respondent’s license be indefinitely suspended for a
minimum period of three (3) years. On December 22,
2014, former Director of the Department Jay Stewart
accepted the recommendations of the ALJ Report
and Board Report and issued an order indefinitely
suspending Respondent’s Physician and Surgeon
License for a minimum of three (3) years.

App. 50

Respondent filed for administrative review,
seeking reversal of the Department’s conclusions
that he had violated the Act and that his license
should, therefore, be suspended. The Circuit Court
affirmed the Department’s decision in part and
reversed in part. The Circuit Court found that
Respondent violated 225 ILCS 60/22(A)(9) by
improperly failing to report the 2007 DEA order in
his 2008 renewal application and violated 225 ILCS
60/22(A)(34) twice by failing to report the 2007 and
2011 DEA orders in his 2008 or 2011 license renewal
applications or in any of his quarterly probation
reports. The Circuit Court found that the allegations
of violations of 225 ILCS 60/22(A)(12) and (15) were
unfounded. Respondent filed a motion for
reconsideration and clarification in the Circuit Court
whereby he asked the Circuit Court to reverse its
decision to affirm the Department’s findings with

App. 51

respect to violations of 225 ILCS 60/22(A)(9) and (34)
and the suspension of his license, or to clarify the
proper discipline to be imposed by the Department in
light of the Circuit Court’s partial reversal. The
circuit Court denied plaintiff’s motion.
Respondent filed an appeal of the Circuit
Court’s decision in which he claimed that he was
improperly found to have violated 225 ILCS 60/22
(A)(9) and (34), and that the discipline imposed upon
him by the Department was excessive and should be
reversed. On December 16, 2016, the Appellate Court
affirmed the Department’s conclusion that
Respondent violated 225 ILCS(A)(9) and (34) and
remanded the case to the Department for
reconsideration of the appropriate discipline in light
of the fact that Circuit Court found that three (3) of
the six (6) violations on which the Department based
its discipline were unfounded. The Court explicitly

App. 52

stated that it expressed no opinion as to whether any
modification should be made to the discipline.
Pursuant to the Appellate Court’s remand of
this matter, the Director entered a new Order on
March 13, 2017. The Director noted that the
remaining three violations (225 ILCS 60/22(A)(9) for
fraud or misrepresentation in applying for, or
procuring a license under the Medical Practice Act
and 225 ILCS 60/22(A)(34) for failure to report to the
Department an adverse action taken against him by
a governmental agency) are no less serious that the
violations vacated by the Appellate Court. The
Director further stated:
While the presence of multiple offenses still
exists, the number of offenses Respondent has
been found to be in violation of has been
reduced by half to 3. The decision to suspend
Respondent’s license for an indefinite period

App. 53

remains reasonable and appropriate given the
presence of all factors and the remaining
presence of multiple offenses. However, the
Circuit Court’s reversal of 3 violations does
warrant a reduction in the amount of time
before Respondent can petition to restore his
license from suspended status.
Accordingly, the Director entered an Order imposing
an indefinite suspension but reducing its minimum
term from 3 years to 2 years.
After entry of the Director’s Order,
Respondent returned to the Circuit Court to
challenge the new sanction. The Circuit Court found
that “The sanction is not appropriate based upon the
material that was provided by Olefsky” and that the
“sanction does not seem to be within the range of any
of the cases that were set forth by Dr. Olefsky as

App. 54

comparable situations where sanctions were
awarded.” The Circuit Court then vacated the
indefinite suspension for a minimum of 2 years and
remanded the matter to the Director.
REMAND
I disagree with the Court’s ruling.
As noted in the Department’s brief, the
applicable standard of review on a sanction imposed
by the Director is abuse of discretion. The general
definition of abuse of discretion used when reviewing
discretionary decisions includes recognition that the
abuse standard is the most deferential standard of
review available with the exception of no review at
all (People v. Coleman, 183 Ill.2d 366, 387 (1998));
that an abuse of discretion occurs only if no
reasonable person could agree with the decision
(Lake Envtl., Inc. v. Arnold, 2015 IL 118110, 16); and
that an abuse of discretion does not exist merely

App. 55

because reasonable persons could differ as to the
decision (In re Adoption of D., 317 Ill.App.3d 155, 160
(2nd Dist. 2000)). In the instant case, the Court made
no finding of an abuse of discretion, there is no basis
to conclude that no reasonable person would agree
with the sanction, and the Court accorded no
deference at all to the Director’s imposition of a
sanction.
The sanction imposed is not an abuse of
discretion and is amply supported by the
circumstances of this case. Respondent is a repeat
offender. He has previously been placed on probation
twice and has had his license summarily suspended
and suspended. He was on a probation at the time of
the current violations. It is clear, for Respondent,
that probation as a sanction and as deterrence is not
working. Suspension is the next sanction in line. It is
not unreasonable to find that Respondent under

App. 56

these circumstances should not be permitted to
practice for a period of time, such as two years.
Further, Respondent’s previous and current
violations establish a pattern of dishonesty. The
Appellate Court has recognized that there is a “high
standard of honestly and integrity imposed on the
medical profession.” Cicmanec v. Department of
Registration and Education, 182 Ill.App.3d 710, 718
(1st Dist. 1989). See also Consiglio v. Department of
Financial and Professional Regulation, 2013 IL App
(1st) 121142. The record establishes that honestly
and integrity are problems for Respondent, and given
his profession, requires a significant sanction to
address it.
The Court’s reliance on Respondent’s cherrypicked cases to justify a lesser sanction is misplaced.
The fact that different individuals have been
disciplined different is not a basis for concluding that

App. 57

an agency’s disciplinary decision in unreasonable.
Siwek v. Police Board of City of Chicago, 374
Ill.App.3d 735, 738 (1st Dist. 2007). Even putting
aside this case law or the abuse of discretion
standard, Respondent’s cited cases do not support
the court’s action.
Six of the right cases cited by Respondent are
consent orders. This renders them significantly
different from the instant case. Consent orders
reflect a negotiated settlement of a case. The instant
case went to hearing but was not resolved by a
consent order. Consent orders, like plea bargains, are
the products of negotiations between the parties.
Because consent orders are in effect settlement
agreements, each party gives up something to avoid
the uncertainty of a disposition following a formal
hearing in a contested case. Accordingly, it makes
perfect sense that physicians guilty of the same

App. 58

violations might receive different levels of discipline
depending on whether the matter was resolved by a
consent order or following a formal hearing in a
contested case. Siddiqui v. Illinois Department of
Professional Regulation, 307 Ill.App.3d 753, 764 (4th
Dist. 1999), cited by Respondent in his brief,
acknowledges this very point. More likely (again
putting aside the appropriate standard of review),
the sanctions in these cited cases act to reflect the
floor of any contemplated sanctions rather than the
ceiling as the Court and Respondent attempt to make
them out to be.
Even without taking the time to analyze in
depth each one of these cases cited by Respondent,
just a cursory review indicates both similarities and
differences with the instant case. Each case is
evaluated on its individual circumstances. The Court
in its ruling found that the Department “provided

App. 59

nothing in response that would seem to indicate that
there was any case that the IDFPR was aware of
that was comparable to this situation that would
warrant the severity of the sanction which the
IDFPR imposed.” This is not the standard of review.
The burden is on the Respondent, not the
Department. Respondent must show and the Court
must find an abuse of discretion. That did not occur
here.
The Appellate Court’s recent opinion in
Nwaokocha v. Illinois Department of Financial and
Professional Regulation, 2018 IL App (1st) 162614,
filed on March 15, 2018, supports my position. In
Nwaokocha, the Appellate Court reversed this
Court’s reversal of a license sanction under
circumstances similar to the instant matter, pointing
to the requirement of a deferential review of
sanctions imposed by the Director. Nwaokocha leads

App. 60

me to believe that the Court’s Order in this instant
case, if appealed, would likely be reversed.
I disagree with the Court’s rulings as to the
appropriateness of the license sanction entered in
this matter and may file an appeal with the
Appellate Court. Without waiving that right to
appeal or in any way conceding any issue for review
and only in an effort to comply with the Court’s
remand and to move this case forward, I will further
reduce the sanction to an indefinite suspension for a
minimum of one year.
NOW THEREFORE, I, JESSICA BAER,
Director of the Division of Professional Regulation of
the Department of Financial and Professional
Regulation of the State of Illinois, DO HEREBY
ORDER, in compliance with the Court’s decision,
that the Certificate of Registration issued to
Respondent to practice as a Physician and Surgeon

App. 61

in the State of Illinois, License No. 036-078254, be
INDEFINITELY SUSPENDED. Respondent is not
permitted to petition to restore his license for at least
one (1) year from the effective date of the Director’s
Order. Respondent is placed on notice that, should he
violate any provision of the Medical Practice Act
while suspended, the Department may initiate
additional action or use such information in objection
to any Petition for Restoration.
This Order shall not become effective until
fourteen (14) days after it is signed by the Director.

DATED THIS 20 DAY OF April, 2018

DEPARTMENT OF FINANCIAL AND
PROFESSIONAL REGULATION of the
State of Illinois; Brian A. Schneider, Secretary
Division of Professional Regulation

App. 62

JESSICA BAER
Director
Case No.
201002234
License No. 03607825

App. 63

STATE OF ILLINOIS DEPARTMENT OF
FINANCIAL
AND PROFESSIONAL REGULATION,
DIVISION OF PROFESSIONAL REGULATION
of the State of Illinois,
Complainant,

v.

No. 2010-02234

Alan H. Olefsky, M.D.,
License No. 036-78254.
Respondent,

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER
This matter comes before the Director of the
Division of Professional Regulation(“Director”) of the
Department of Financial and Professional Regulation
(“Department”) on an Order Remanding the case
from the Appellate Court of Illinois, First Judicial
District (“Appellate Court”) in Civil Case No. 15-CH00125. The Appellate Court affirmed the Cook

App. 64

County Circuit Court, First Municipal District’s
(“Circuit Court”) decision confirming the
Department’s original decision and reversing it in
part. The Director has been fully informed and
advised in this matter.
On July 21, 2014, the Department filed a
Second Amended Complaint in two counts, alleging,
in summary, that Respondent failed to disclose to the
Department that the Drug Enforcement
Administration (the “DEA”) had denied his DEA
Registration application in 2007 and again in 2011.
Respondent failed to disclose the DEA denials as
required in quarterly reports to the Department and
on renewals of his physician license in 2008 and
2011. Subsequent to hearing, on September 25, 2014,
the Administrative Law Judge Erik D. Gruber issued
a Report and Recommendation (the “ALJ Report”),
concluding that the Department proved by clear and

App. 65

convincing evidence that Respondent violated 225
ILCS 60/22(A)(9), (12), and (34) as alleged in Count I
and 225 ILCS 60/22(12), (15), and (34) as alleged in
Count II. The ALJ Report recommended to the
Illinois Medical Disciplinary Board (the “Board”) that
Respondent’s Physician and Surgeon License be
indefinitely suspended for a minimum period of three
(3) years.
On October 1, 2014, the Board issued its
Findings of Fact and Conclusions of Law of the ALJ
Report and Recommendation and recommended that
Respondent’s license be indefinitely suspended for a
minimum period of three (3) years. On December 22,
2014, former Director of the Department Jay Stewart
accepted the recommendations of the ALJ Report
and Board Report and issued an order indefinitely
suspending Respondent’s Physician and Surgeon
License for a minimum of three (3) years.

App. 66

Respondent filed for administrative review,
seeking reversal of the Department’s conclusions
that he had violated the Act and that his license
should, therefore, be suspended. The Circuit Court
affirmed the Department’s decision in part and
reversed in part. The Circuit Court found that
Respondent violated 225 ILCS 60/22(A)(9) by
improperly failing to report the 2007 DEA order in
his 2008 renewal application and violated 225 ILCS
60/22(A)(34) twice by failing to report the 2007 and
2011 DEA orders in his 2008 or 2011 license renewal
applications or in any of his quarterly probation
reports. The Circuit Court found that the allegations
of violations of 225 ILCS 60/22(A)(12) and (15) were
unfounded. Respondent filed a motion for
reconsideration and clarification in the Circuit Court
whereby he asked the Circuit Court to reverse its
decision to affirm the Department’s findings with

App. 67

respect to violations of 225 ILCS 60/22(A)(9) and (34)
and the suspension of his license, or to clarify the
proper discipline to be imposed by the Department in
light of the Circuit Court’s partial reversal. The
circuit Court denied plaintiff’s motion.
Respondent filed an appeal of the Circuit
Court’s decision in which he claimed that he was
improperly found to have violated 225 ILCS 60/22
(A)(9) and (34), and that the discipline imposed upon
him by the Department was excessive and should be
reversed. On December 16, 2016, the Appellate Court
affirmed the Department’s conclusion that
Respondent violated 225 ILCS(A)(9) and (34) and
remanded the case to the Department for
reconsideration of the appropriate discipline in light
of the fact that Circuit Court found that three (3) of
the six (6) violations on which the Department based
its discipline were unfounded. The Court explicitly

App. 68

stated that it expressed no opinion as to whether any
modification should be made to the discipline.
The Department will follow the Appellate
Court’s instruction to reconsider the appropriate
discipline in light of the reversal of three (3) of the
six (6) violations by the Circuit Court. The Director
partially accepts and partially rejects the Findings of
Fact contained in the September 25, 2014 ALJ
Report. The Director accepts the Findings of Fact
made by ALJ Gruber with regard to the basic facts of
the case contained in the ALJ Report under the
headings “Background of Case” and “Findings of
Fact.” The Director also accepts the Findings of Fact
made by ALJ Gruber with regard to the discussion of
Respondent’s alleged violations of 225 ILCS
60/22(A)(9) and 225 ILCS 60/22(A)(34).
In the former Director’s December 22, 2014
Order suspending Respondent’s license indefinitely

App. 69

for at least three (3) years, the former Director relied
on four aggravating factors: (1) the seriousness of the
offenses; (2) the presence of multiple offenses; (3)
plaintiff’s prior disciplinary history; and (4) plaintiff’s
lack of contrition. Factors 3, and 4 remain unaffected
by the Circuit Court decision. With respect to factor
1, Respondent’s violations of 225 ILCS 60/22(A)(9),
for fraud or misrepresentation in applying for, or
procuring, a license under the Medical Practice Act,
and 225 ILCS 60/22(A)(34), failure to report to the
Department an adverse action taken against him by
a governmental agency, are no less serious that the
violations vacated by the Appellate Court. The
Appellate Court made no claims to the contrary.
While the presence of multiple offenses still
exists, the number of offenses Respondent has been
found to be in violation of has been reduced by half to
3. The decision to suspend Respondent’s license for

App. 70

an indefinite period remains reasonable and
appropriate given the presence of all factors and the
remaining presence of multiple offenses. However,
the Circuit Court’s reversal of 3 violations does
warrant a reduction in the amount of time before
Respondent can petition to restore his license from
suspended status.
Now THEREFORE, I, JESSICA BAER,
Director of the Division of Professional Regulation of
the Department of Financial and Professional
Regulation of the State of Illinois, DO HEREBY
ORDER, in compliance with the Appellate Court’s
decision, that the Certificate of Registration issued to
Respondent to practice as a Physician and Surgeon
in the State of Illinois, License No. 036-078254, be
INDEFINITELY SUSPENDED. Respondent is not
permitted to petition to restore his license for at least
wo (2) years from the effective date of the Director’s

App. 71

Order. Respondent is placed on notice that, should he
violate any provision of the Medical Practice Act
while suspended, the Department may initiate
additional action or use such information in objection
to any Petition for Restoration.

DATED THIS 13 DAY OF March, 2017.
DEPARTMENT OF FINANCIAL AND
PROFESSIONAL REGULATION of the
State of Illinois; Brian A. Schneider, Secretary
Division of Professional Regulation

JESSICA BAER
Director
Case No.
201002234
License No. 036078254

App. 72

